BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF COMPLIANCE
No. 20-7474
EZRALEE J. KELLEY,

Petitioner,
v.
UNITED STATES OF AMERICA,

Respondent.
As required by Supreme Court Rule 33. l(h), I certify
that the Motion for Leave contains 185 words and the
Brief for Americans for Prosperity Foundation and
Rutherford Institute as Amici Curiae in Support of
Petitioner contains 4,202 words, excluding the parts of
the Brief that are exempted by Supreme Court Rule
33.l(d).
I declare under penalty of perjury that the foregoing
is true and correct.
Executed on May 5, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
I Suite
102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Sworn to and subscribed before me by said Affiant
on the date designated below.

[seal]

Notary Public

